UNITED STATES DEPARTMENT OF AGRICULTURE

        OFFICE OF INSPECTOR GENERAL



STATEMENT OF THE HONORABLE PHYLLIS K. FONG

               INSPECTOR GENERAL


                     Before the

  Committee on Agriculture, Nutrition, and Forestry

                     U.S. Senate

                   June 23, 2011
Good morning, Chairwoman Stabenow, Ranking Member Roberts, and Members of the

Committee. Thank you for the opportunity to testify about the Office of Inspector General’s (OIG)

work to help improve oversight and delivery of Department of Agriculture (USDA) programs and

operations.


I will begin my testimony with a brief overview of OIG’s mission and the work we do. Then, I

will discuss examples of how our audit and investigative efforts can enhance the Department’s

performance and efficiency in three areas: strengthening communication and coordination,

reducing improper payments, and increasing oversight and control.


OIG’s Mission


As you know, OIG’s mission is to promote the economy, efficiency, and effectiveness of USDA

programs and operations by performing audits and investigations to reduce fraud, waste, and

abuse. The Inspector General (IG) Act of 1978 established a dual reporting responsibility,

whereby IGs report both to the head of their respective agencies and to Congress. 1 This unique

relationship provides the legislative safety net that protects OIGs’ independence and objectivity

as we conduct our oversight responsibilities.


USDA OIG conducts audits designed to ascertain if a program is functioning as intended, if

program payments are reaching those they are intended to reach, and if funds are achieving their

intended purpose. When we find problems with the programs we assess, we make

recommendations we believe will help the agency better fulfill its mission. We do not have

regulatory authority over agencies or programs; instead, agencies are responsible for implementing

our recommended corrective actions. We also conduct investigations of individuals and entities

1
    5 U.S.C. app. 3, §§ 1-13.

                                                1
that are suspected of abusing USDA programs—these investigations can result in fines and

imprisonment for those convicted of wrongdoing in addition to agency disciplinary actions for

USDA employees who are found to have engaged in misconduct.


In fiscal year (FY) 2010 through June 1, 2011, our audit and investigative work obtained potential

monetary results totaling nearly $256 million. 2 We issued 89 audit reports to strengthen the

Department’s programs and operations, which produced over $46 million in potential results when

program officials agreed with our recommendations. During the same period, OIG’s investigations

led to 743 convictions, with potential results totaling almost $210 million.


Improving USDA Program Performance and Efficiency


The 2008 Farm Bill and the 2009 Recovery Act modified or provided additional funds for many

existing USDA programs and created new ones for the Department to implement and

administer. 3 OIG has responded by conducting audits and investigations that help ensure proper

benefit delivery; safeguard programs from fraud, waste, and abuse; and protect the health and

safety of USDA personnel and the public.




2
  Audit monetary impacts derive from funds put to better use and questioned/unsupported costs as established by
Congress in the IG Act, 5 U.S.C. app. 3 § 5. Investigation monetary impacts come from recoveries, court-ordered
fines, restitutions, administrative penalties, and asset forfeitures.
3
  Formally, the 2008 Farm Bill is titled the Food, Conservation, and Energy Act of 2008, Pub. L. No. 110-234, 122
Stat. 923; and the 2009 Recovery Act is titled the American Recovery and Reinvestment Act of 2009, Pub. L. No.
111-5, 123 Stat. 115.

                                                        2
Strengthening Communication and Coordination


USDA’s need to coordinate activities among its agencies and programs is important. Several of

its agencies provide payments to producers for programs that have complementary and

interlocking missions, such as insurance payments for crop losses through the Risk Management

Agency (RMA) and disaster assistance payments through the Farm Service Agency (FSA).

Similarly, many USDA responsibilities involve coordination with other Federal Departments,

State and local entities, and foreign countries, such as food safety inspection and global trade

export initiatives. To deliver programs effectively, USDA agencies must understand how their

programs interrelate, and they must work together to create a cohesive, integrated system of

program administration and data. Such an approach will increase organizational communication,

streamline operations, reduce spending, and improve program efficiency, compliance, and

integrity. Examples of our work in this area include the following.


•   Our audit of suspension and debarment at USDA showed that the Department could better

    protect its programs by debarring those individuals and entities that exploit programmatic

    vulnerabilities. Since debarred individuals and entities are prohibited from participating in

    Federal programs outside USDA, vigorous and appropriate use of suspension and debarment

    supports program integrity Governmentwide. Although the Department has authority to

    exclude those who commit crimes against its programs from doing business with the

    Government, our audit work showed that convicted program violators were rarely suspended or

    debarred. 4 Between FYs 2004 and 2007, only 38 of 1,073 individuals convicted of crimes

    pertaining to USDA programs were debarred—less than 4 percent. USDA officials have


4
 50601-14-AT, Effectiveness and Enforcement of Suspension and Debarment Regulations in the U.S. Department of
Agriculture, Aug. 2010.

                                                     3
    agreed that suspension and debarment should be considered more frequently for convicted

    program abusers, and we are working together to determine the corrective actions needed to

    employ suspension and debarment more effectively.

•   In an audit involving USDA’s relationship with another Department, we examined Food Safety

    and Inspection Service’s (FSIS) efforts in conjunction with the Department of Health and

    Human Services’ Food and Drug Administration (FDA) to integrate the nation's food-testing

    laboratories into a network capable of responding to food contamination emergencies.

    Through a directive, the President established the Food Emergency Response Network

    (FERN). 5 We assessed FSIS’ implementation of FERN and determined that the agency has

    made progress, including establishing standardized diagnostic protocols, but needs to take

    more steps to fully implement the program. We recommended that FSIS work with FDA to

    update their working agreements and strategy, ensure that there are enough laboratories to

    handle large-scale emergencies, and use targeted surveillance to improve FERN’s readiness to

    respond to threats to the nation’s food supply. FSIS agreed with our recommendations and has

    initiated a number of corrective actions.


•   Coordination is also important within individual USDA agencies. For example, our audit of

    Forest Service’s (FS) invasive species program found that its general lack of internal controls

    could be traced back to fragmented authority, poor coordination, and inadequate

    communication. 6 FS’ invasive species program is intended to protect U.S. lands and native

    species, but FS had not established many of the elements necessary to ensure it could do so,

    including: a proper control environment, an overall risk assessment, and adequate


5
  Homeland Security Presidential Directive/HSPD-9—Defense of United States Agriculture and Food, 1 Pub. Papers
173 (January 30, 2004). Our audit is: 24601-6-AT, Food Emergency Response Network, Mar. 2011.
6
  08601-7-AT, Forest Service Invasive Species Program, Sep. 2010.

                                                      4
    performance monitoring. Instead of implementing the program with a coherent strategy,

    FS relied on functional areas and field units that operated independently of one another.

    Further, FS divided responsibility for the program between three organizational areas, but

    gave none of them overall authority for the program. As a result, despite the work of

    dedicated personnel, FS’ overall effort to combat invasive species was not cohesive,

    coordinated, or effectively aligned with agencywide goals. In general, FS agreed with our

    recommendation to establish a proper control environment with increased coordination and

    clear lines of communication.


Reducing Improper Payments


In FY 2010, USDA reported that 16 programs were vulnerable to significant improper payments

(“high-risk” programs) and estimated $5 billion in Departmentwide improper payments—

a 5.4 percent error rate. This represents a significant reduction from FY 2009’s 5.92 percent

error rate, but still leaves the Department with an opportunity to realize considerable cost savings

by continuing to reduce its improper payments.


Governmentwide, the President’s 2009 Executive Order, Reducing Improper Payments and

Eliminating Waste in Federal Programs (EO 13520), and the Improper Payments Elimination

and Recovery Act of 2010 (IPERA) strengthen Federal improper payment reduction efforts by

establishing rigorous accountability, reporting, and preventative requirements. 7 For example,

Federal Departments with high-priority or high-risk programs, such as USDA, are required to

name accountable officials, establish goals for reducing improper payments, and issue quarterly
7
  IPERA (31 U.S.C. § 3321 note) supplements the Improper Payments Information Act of 2002. The President also
issued two Presidential memoranda expanding payment recovery audits and enhancing payment accuracy through a
“Do Not Pay List.” The memoranda are: Memorandum on Finding and Recapturing Improper Payments, DAILY
COMP. PRES. DOC., 2010 DCPD No. 00162 (March 10, 2010); and Memorandum on Enhancing Payment Accuracy
Through a “Do Not Pay List,” DAILY COMP. PRES. DOC., 2010 DCPD No. 00512 (June 18, 2010).

                                                      5
high-dollar overpayment reports. These recent improper payment initiatives have also made

OIG responsible for evaluating the Department’s progress in implementing their requirements.


•   As an example of our work in evaluating USDA’s progress in meeting EO 13520’s

    requirements, we have reviewed the Food and Nutrition Service’s (FNS) accountable official

    report for its National School Lunch Program (NSLP) and Supplemental Nutrition Assistance

    Program (SNAP). 8 According to the Department, improper payments for these programs in

    FY 2009 totaled nearly $1.5 billion for NSLP and $2.2 billion for SNAP, which means that

    reducing their improper payments can yield considerable cost savings for USDA. 9 Our audit

    determined that FNS needs to improve its methodology for identifying and reporting

    improper payments within NSLP and that the agency’s targeted 5 percent improper payment

    rate for SNAP was not aggressive enough. FNS generally agreed with our recommendations

    for both programs and has since lowered its target for SNAP to 4.36 percent.


•   We are also reviewing USDA’s quarterly high-dollar overpayment reports for FY 2010 to

    assess their compliance with EO 13520. Further, we will assess USDA’s compliance with

    IPERA beginning in FY 2012 as required. As we continue to review how the Department

    identifies improper payments and the steps it takes to prevent them, we will assess improper

    payment trends, determine whether agency actions are effective and compliant, and make

    recommendations as warranted.




8
  SNAP is still known as the “food stamp program” to many in the public, although it was officially renamed in
2008. (50024-2-FM, Calendar Year 2010 Executive Order 13520, Reducing Improper Payments, Accountable
Official Report Review, Mar. 2011.)
9
  USDA’s FY 2010 Performance and Accountability Report.

                                                         6
•    In addition to correctly identifying and reporting improper payment rates, our audit work has

     shown that ensuring participant eligibility is an important part of reducing improper payments.

     For example, we audited the Natural Resources Conservation Service’s (NRCS) Conservation

     Security Program (CSP), which encouraged producers to reach “the pinnacle of good land

     stewardship” by entering into 5 to 10 year contracts that pay them for maintaining high

     conservation standards and enhancing existing practices. 10 We concluded that NRCS did not

     adequately restrict participation to only those who were eligible because of their outstanding

     conservation practices. Instead, the agency awarded over half the contracts we examined

     (38 of 75) to participants who did not qualify for the program or did not merit their

     conservation payments. When implementing CSP, NRCS tried to maximize its restricted

     resources partly by determining producer eligibility based on unverified information that was

     provided by producers themselves. As a result, NRCS has paid about $1.4 million for

     38 questionable contracts for 2006 and 2007, and is expected to pay nearly $4.3 million more

     throughout the contract period. We concluded that NRCS lacked assurance that the

     $424 million paid to landowners through FY 2007 had been effectively used to reward and

     encourage excellent conservation. In general, NRCS concurred with our recommendations to

     strengthen its controls over the program and we continue to work with them on the corrective

     actions needed.


To help minimize improper payments, OIG has also audited the internal controls agencies have in

place to ensure eligibility for and provide accountability over the $28 billion in additional funding

the 2009 Recovery Act provided for USDA programs in areas such as farm and housing loans.


10
  The 2008 Farm Bill replaced CSP with the Conservation Stewardship Program, which shares a similar goal of
encouraging producers to address resource concerns in a comprehensive manner. (10601-4-KC, Natural Resources
Conservation Service Conservation Security Program, Jun. 2009.)

                                                     7
The 2009 Recovery Act included $22.5 million for OIG over 5 years to oversee programs funded

by the Act and administered by USDA. In response, OIG initiated a number of short- and long-

term actions to provide timely and effective oversight of the Department’s expenditure of

Recovery Act funds. As of June 1, 2011, we have issued 29 audit and 11 investigative Recovery

Act-related reports. Since providing timely information is a priority, we are also issuing short

turnaround reports (known as “Fast Reports”), so USDA program managers can take corrective

action as soon as we identify problems. As of June 1, 2011, we have issued 53 Fast Reports

covering issues such as loan and grant program administration.


•    One example of our work in this area involves auditing $133 million of Recovery Act funds

     that financed over $10 billion in single family housing loan guarantees in rural areas. Our

     statistical sample of 100 loans identified 28 loans where lenders had not fully complied with

     Federal regulations or Recovery Act directives in determining borrower eligibility. 11 We

     found borrowers who were ineligible for a variety of reasons such as having annual incomes

     that exceeded program limits. By guaranteeing loans for ineligible borrowers, other eligible

     borrowers may not have received guarantees that could have better achieved the goals of the

     Recovery Act. Based on the interim results of our statistical analysis, we estimate that

     27,206 loans were ineligible for the program (over 33 percent of the portfolio)—with a

     projected total value of $4 billion. 12




11
   04703-0002-CH(1), Rural Development Guaranteed Single-Family Housing Loans Made by Lenders to Ineligible
Borrowers, Dec. 2010.
12
   We chose a sample size of 100 because we expected a moderate error rate and wanted the ability to report findings
with a +/-10 percent precision (confidence interval) at a 95 percent confidence level.

                                                         8
In addition to programmatic improper payments, there are also individuals who seek to defraud

programs, such as FNS’ SNAP, of money intended to provide basic nutrition assistance to those

most in need. Our investigative work on SNAP resulted in 212 convictions and approximately

$36 million in monetary results for FY 2010. Our main investigative focus is on fraud committed

by retailers, primarily because FNS directly reimburses retailers, while States are responsible for

ensuring that recipients are eligible. With few exceptions, our investigations yield tangible and

direct benefits to the Government, including criminal prosecution, significant fines and penalties,

and restitution. The most prevalent crime against SNAP is benefits trafficking, which involves a

recipient exchanging benefits for less than face value with someone who then claims

reimbursement for the full amount. The money involved in this type of SNAP fraud can be

significant.


•      For example, in Los Angeles, California, OIG and Secret Service agents executed four search

       warrants in November 2008 at a restaurant authorized to accept SNAP benefits from

       recipients in exchange for hot meals, as well as at the restaurant owner’s home. They

       arrested the owner and seized over $360,000 from multiple bank accounts. The investigation

       disclosed that the restaurant owner redeemed more than $1.3 million in SNAP benefits using

       an electronic benefit transfer (EBT) terminal registered to the restaurant by depleting

       multiple EBT cards of their balances one cent at a time. 13 In February 2011, the owner was

       sentenced in Federal court to 37 months’ incarceration, followed by 2 years’ supervised

       release, and was ordered to pay more than $1 million in restitution.




13
     SNAP recipients redeem their benefits through EBT cards that resemble other bank withdrawal cards.

                                                          9
Other USDA food programs are also at risk for fraud and abuse, such as the Child and Adult Care

Food Program (CACFP) and the Special Supplemental Nutrition Program for Women, Infants, and

Children (WIC), which are both administered by FNS. In FY 2010, we opened 26 investigations

in these areas and issued 9 investigative reports. This work led to 28 convictions and almost

$3 million in monetary results.


•   For example, in one CACFP case, a joint investigation by OIG and the North Carolina State

    Bureau of Investigation determined that the executive director of a daycare in North Carolina

    submitted false claims and willfully misapplied program funds. The organization overstated

    its reimbursement claims to the North Carolina State Department of Health and Human Services

    and received more than $240,000 in CACFP funds to which it was not entitled. In January

    2011, the director was sentenced in Federal court to serve up to 18 months’ imprisonment

    and 60 months’ probation, and was ordered to pay over $242,000 in restitution.


•   In another CACFP investigation, a former program sponsor in Tuttle, Oklahoma, pled guilty

    to stealing $1.6 million in program funds. In January 2010, the sponsor was sentenced in

    Federal court to 41 months’ incarceration and ordered to pay full restitution. Our

    investigation determined that the sponsor inflated the number of meals reimbursed and then

    submitted the false claims to the State of Oklahoma. The sponsor was also ordered to forfeit

    all rights, title, and interest in $1.6 million in assets, including vehicles, residential and

    commercial properties, and investment accounts, in an effort to recover the stolen funds.


•   Retailers who abuse food assistance programs sometimes funnel their illegal proceeds out of

    the United States. A joint investigation between OIG and the Federal Bureau of

    Investigation identified a small Somali-owned store in Ypsilanti, Michigan, that was


                                                   10
    trafficking in SNAP and WIC benefits, and then transferring money overseas, generally to

    persons located in the Middle East and the Horn of Africa. The storeowners and employees

    pled guilty to over $750,000 in SNAP and WIC fraud. In May 2010, they were sentenced in

    Federal court to spend a total of 48 months in prison and pay almost $2 million in restitution.


Several noteworthy OIG investigations involving other USDA benefit programs also resulted in

significant monetary recoveries and restitution in FY 2010. For example, for FSA and RMA

combined, we opened 76 cases and issued 49 investigative reports, which led to 35 convictions and

over $45 million in monetary results in FY 2010. OIG’s investigations into fraudulent activities

involving FSA and RMA are some of our most complex investigations because they often involve

large monetary amounts and voluminous documentation.


•   In a particularly complex FSA case, we determined that a woman who owned a grain

    trucking and marketing company in Missouri defrauded over 180 farmers out of at least

    $27 million. Between 2002 and 2009, she marketed and sold grain for farmers above market

    prices. As a result, she quickly became one of the largest grain dealers in her State.

    However, we uncovered evidence to prove that she was operating what is known as a “Ponzi

    Scheme”—essentially, she was using the money from later sales to cover her previous above

    market prices. She eventually ran out of money and left her later customers unpaid. Due to

    our investigation, she pled guilty to fraud and transporting stolen property across State lines,

    among other crimes. In February 2010, she was sentenced in Federal court to serve

    108 months in prison followed by 36 months’ supervised release, and ordered to pay

    $27.4 million in restitution.




                                                 11
•   Working jointly with RMA’s Special Investigations Branch and the Internal Revenue

    Service’s Criminal Investigation Branch, OIG investigators found that a large number of

    farmers in North Carolina concealed their production and then subsequently filed false crop

    insurance claims based on non-existent losses. This was a far-reaching conspiracy, involving

    farmers, warehouse operators, insurance agents, and loss adjusters, all of whom assisted in

    filing false claims and concealing the farmers’ actual production. To date, 24 individuals

    have pled guilty to various crimes in Federal court. These included a tobacco buyer who was

    sentenced to 18 months in prison and 3 years’ probation after he pled guilty to charges of

    conspiracy to make materially false statements and to commit money laundering. He was

    ordered to pay $10.3 million in joint and several restitution and to forfeit over $647,000.

    A crop insurance agent also pled guilty to the same charges and was sentenced to 30 months

    in prison and 3 years’ probation. He was ordered to pay $16.6 million in restitution and to

    forfeit over $366,000.


Increasing Oversight and Control


Federal managers are responsible for controlling the programs and operations they oversee

through internal systems that bring about desired objectives, such as making payments accurately

and administering programs correctly. Our audit work in this area helps USDA managers

identify flaws that can lead to systemic program weaknesses. We also make recommendations

for strengthening program control and integrity. However, there will always be individuals and

entities bent on defrauding and abusing programs. Accordingly, our investigators work to

identify such activity in order to protect USDA resources, Department employees, and

the public.



                                                 12
•    Our ongoing assessment of the recently implemented Biomass Crop Assistance Program

     (BCAP) demonstrates that integrating internal program control into a program’s design upfront

     is critical to its later success. Interim reports from our ongoing audit noted that BCAP suffered

     from hasty implementation, and did not have adequate management controls to prevent abuses

     particular to the program. 14 The 2008 Farm Bill authorized BCAP, administered by FSA, to

     support renewable crops that can be used to produce energy. Despite spending over

     $243 million to implement one section of the program, which supports the collection, harvest,

     storage, and transportation of biomass, we found wide-ranging problems, including

     inequitable treatment of program participants and improper payments. These issues occurred

     largely because FSA did not develop tools specific to the program’s needs, such as

     specialized guidance. Instead, the agency attempted to use guidance and oversight

     mechanisms designed for other programs, which left BCAP vulnerable. FSA has taken

     corrective action in response to our recommendations to develop program-specific guidance

     and to specify prohibited practices in its BCAP agreements.

•    Effective internal controls covering all phases of a program are also important in

     safeguarding USDA funds. For example, FSA provides temporary financial assistance

     through direct operating loans to farmers and ranchers who are unable to secure credit at

     reasonable rates. The agency protects its investment by requiring adequate collateral.

     However, in our audit of FSA’s oversight and control of loan collateral, we found that while

     FSA’s direct operating loans were adequately secured upfront, 25 percent of the borrowers



14
  03601-28-KC(1), Recommendations for Improving Basic CHST Program Administration, Biomass Crop
Assistance Program Controls over Collection, Harvest, Storage, and Transportation Matching Payments Program,
Dec. 2010; and 03601-28-KC(2), Recommendations for Preventing or Detecting Schemes or Devices, Biomass Crop
Assistance Program Controls over Collection, Harvest, Storage, and Transportation Matching Payments Program,
Feb. 2011.

                                                    13
     we visited had removed their collateral without authorization.15 We recommended that FSA

     strengthen its oversight of loan collateral to ensure that it is not removed without

     authorization, and, if it is, that the circumstances are documented and appropriate

     enforcement action is taken. FSA officials agreed with our recommendations.

•    Ensuring programs are being administered properly is another key to protecting USDA

     resources, and our audits take notice when agencies are managing their programs adequately.

     For example, the 2008 Farm Bill directed OIG to examine FSA’s loan foreclosure proceedings

     with respect to socially disadvantaged (SDA) farmers. Our resulting audit concluded that there

     was no significant statistical difference between FSA’s loan foreclosure process for SDAs and

     other farmers. 16 With some minor exceptions generally related to timing (e.g., late delinquency

     notification), we reported that FSA’s foreclosure process conformed to applicable laws and

     regulations. We continue to undertake work related to civil rights, such as an audit we recently

     initiated at the Secretary’s request that will address complaints related to alleged discrimination

     in USDA programs. Specifically, our audit will assess the Department’s decisionmaking

     process for settling with complainants who allege discrimination.

•    In addition to administering programs properly, USDA managers are responsible for acting

     ethically in overseeing programs under their authority. Our investigations also look into

     cases where Departmental personnel have not lived up to these responsibilities. In such

     instances, even when there is relatively little money at stake, the risk to the public’s

     confidence in USDA remains high. Fortunately such cases are rare, but in one instance we

     found that a senior NRCS official applied for and received approximately $13,000 in agency

     funds to build a water facility on his goat farm in Mississippi through a program that supports

15
  03601-18-CH, FSA Loan Security, Aug. 2010.
16
  03601-49-TE, Farm Service Agency Socially Disadvantaged Borrower Foreclosures—Farm Program Loans, Jun.
2009.

                                                   14
    such activity. Our investigation disclosed that the official had no goats, but instead paid a

    contractor to build a recreational pond behind his second home. During our investigation, the

    official attempted to bribe the contractor with $5,000 to convince him to provide false

    information about the project to OIG. In June 2011, in Federal Court, the official pled guilty

    to making false claims. Sentencing is set for September 2011.


•   We also investigate false claims made by those doing business with USDA. For example,

    our investigation of two owners of a bioenergy company in Mississippi determined that they

    had submitted false claims in order to defraud the Commodity Credit Corporation of almost

    $2.9 million in connection with 2004 and 2005 bioenergy program payments. The owners

    falsely stated they had used large amounts of soybean oil to make large quantities of

    biodiesel fuel. One owner was sentenced in Federal court in July 2010 to 60 months of

    incarceration followed by 60 months of supervised release. In September 2010, the other

    owner was sentenced in Federal court to 26 months of incarceration followed by 36 months

    of supervised release. Both were ordered to pay nearly $2.9 million in joint and several

    restitution.


•   Our investigations also disclosed that the managing owner of an organic company in Texas

    provided false statements and documents in order to conceal sales of nearly 4 million pounds

    of various agricultural products, such as pinto beans, which he falsely represented and sold as

    organic crops in 2005 and 2006. In February 2010, he was sentenced in Federal court to

    serve 24 months’ imprisonment. As part of his sentence, he was also ordered to pay over

    $523,000 in restitution and was barred from participating in USDA programs for 5 years.




                                                 15
Conclusion


In summary, OIG’s work is designed to help USDA enhance performance and efficiency by

strengthening communication and coordination to provide for more effective program

administration; reducing improper payments to save taxpayer dollars; and increasing control over

programs and operations to ensure they function as intended. Our audits and investigations

illustrate OIG’s continuing commitment to work collaboratively with the Department to improve

program economy, efficiency, effectiveness, and integrity.


This concludes my testimony. Thank you again for inviting me to testify before the Committee,

and I would be pleased to address any questions you may have.




                                               16
